   November 8, 2005




Financial Management

Report on Compiling and Recording
Financial Adjustments Related to
DoD Commercial Payments
(D-2006-013)




                  Department of Defense
                 Office of Inspector General

                                   Constitution of
                                  the United States

     A Regular Statement of Account of the Receipts and Expenditures of all public
     Money shall be published from time to time.
                                                             Article I, Section 9
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                      Department of Defense Inspector General
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704




Acronyms
CRS                   Contract Reconciliation System
DFAS                  Defense Finance and Accounting Service
MOCAS                 Mechanization of Contract Administration Services System
NULO                  Negative Unliquidated Obligation
SF 1081               Standard Form 1081
                            INSPECTOR GENERAL
                          DEPARTMENT OF DEFENSE
                             400 ARMY NAVY DRIVE
                        ARLINGTON, VIRGINIA 22202-4704




                                                                   November 8,2005


MEMORANDUM FOR DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                 SERVICE
SUBJECT: Report on Compiling and Recording Financial Adjustments Related to DoD
         Conmercial Payments (Report No. D-2006-013)

      We are providing this report for information and use. We considered
management comments on a draft of this report when preparing the final report.
       Comments on the draft of this report conformed to the requirements of DoD
Directive 7650.3 and left no unresolved issues. Therefore, no additional comments are
required.
         We appreciate the courtesies extended to the staff. Questions should be directed
to James L. Kornides at (614) 75 1-1400 ext. 2 11 or Mr. Curt W. Malthouse at
(614) 751-1400 ext. 230. See Appendix B for the report distribution. The team members
are listed inside the back cover.
                               By direction of .the Deputy Inspector General for Auditing:



                                        ~ a u Granetto,
                                                g       CPA
                                      Assis t Ins~ectorGeneral
                                      Defense ~inzkcialAuditing
                                               Service
                Department of Defense Office of Inspector General
Report No. D-2006-013                                                 November 8, 2005
   (Project No. D2004-D000FJ-0212.000)

       Compiling and Recording Financial Adjustments Related to
                     DoD Commercial Payments

                                  Executive Summary

Who Should Read This Report and Why? DoD financial managers and contracting
officials responsible for compiling and recording financial adjustments associated with
contracts processed in the Mechanization of Contract Administration Services system
should read this report. It discusses improvements needed in the internal controls over
the identification and processing of financial adjustments in the system.

Background. The Defense Finance and Accounting Service Columbus used the
Mechanization of Contract Administration Services system to manage and process more
than $115 billion in contractor payments in FY 2004. Defense Finance and Accounting
Service Columbus contract reconciliation division personnel made financial adjustments
using Standard Form 1081 to correct any errors in payment allocations in its records, and
in the applicable Defense Finance and Accounting Service accounting station records.
Additionally, when some refunds were received from contractors, Defense Finance and
Accounting Service Columbus deposited the monies into a suspense account,
subsequently posting them to the correct appropriations using the Standard Form 1081 to
complete the financial adjustments. During FY 2004 Defense Finance and Accounting
Service Columbus made 187,482 financial adjustments in its Mechanization of Contract
Administration Services system data base to correct information concerning $20.5 billion
of its payments.

Results. Although many of the financial adjustments Defense Finance and Accounting
Service made to the Mechanization of Contract Administration Services system database
were needed, a significant number of those we examined were not necessary or
accurately compiled and recorded. A judgmental sample of 185 of the adjustments,
valued at $1.8 billion, showed that 80 of the adjustments ($924 million) were valid and
reasonable. However, 105 adjustments ($910 million) were either voided prior to being
reported, were unnecessary or erroneously compiled and recorded, or corrected prior
unnecessary and erroneous adjustments. Additionally, only 4 of 11 Defense Finance and
Accounting Service officials who certified the financial adjustments we reviewed were
authorized to do so. We concluded that Defense Finance and Accounting Service
Columbus needs to improve internal controls over its financial adjustment process to
minimize the number of adjustments it makes, ensure the adjustments are accurate,
ensure related financial management information is useable, and reduce reconciliation
costs. See the Finding section of the report for the detailed recommendations.

Management Comments. The Deputy Director of Defense Finance and Accounting
Service, Commercial Pay Services (Columbus, Ohio) concurred with the audit findings
and the intent of the recommendations. She stated that DFAS will compile reports on
financial adjustments and determine the content, data source, receipts, and frequency of
reports to be generated and any system modifications or queries that will be necessary for
such reporting. The Deputy Director stated that she would ensure that all new DFAS
employees are given extensive training on the entire reconciliation process, which
includes the completing of financial adjustments. The Deputy Director agreed to revise
desk procedures to include a checklist to be used by the reviewing/approving official in
both the reconciliation and accounts receivable areas. She also stated that DFAS will
work with its customers to verify what information they require to ensure compliance
with directives. The Deputy Director did not believe that additional detailed
reconciliation procedures were needed.

See the Finding section for discussion of the management comments and the
Management Comments section for a complete text of the management comments.




                                            ii
Table of Contents

Executive Summary                                                       i

Background                                                              1

Objectives                                                              1

Finding
                  Contract Financial Adjustments                        3


Appendixes
     A.         Scope and Methodology                                  11
                  Prior Coverage                                       12
     B.         Report Distribution                                    13

Management Comments
     Defense Finance and Accounting Service, Commercial Pay Services   15
Background
    Defense Finance and Accounting Service (DFAS) Columbus, located in
    Columbus, Ohio, made contract payments on a variety of multi-year DoD
    contracts in FY 2004. DFAS Columbus paid more than $115 billion to
    approximately 16,000 contractors on 330,000 active contracts. It performed this
    task using a payment module in its Mechanization of Contract Administration
    Services (MOCAS) system.

    Other DFAS locations were involved in performing the official accounting for
    DoD payments. Depending on the nature and type of procurement, multiple
    offices carried out DoD accounting functions in widely separated locations using
    a variety of different tracking systems.

    DFAS Columbus uses the MOCAS database to compile and provide information
    on payments to the locations that maintain the official accounting records, but
    MOCAS is not the official accounting system and is not integrated with the
    numerous DoD accounting systems. MOCAS is a contract administration system
    that contains a payment module. The payment module is used to disburse
    payments to contractors electronically.

    When DFAS Columbus makes a payment to a contractor, it allocates the
    payments to the appropriate line of accounting based on contractual information
    provided by the contracting officer. DFAS Columbus maintains a division that
    performs reconciliations to make adjustments to correct any incorrect payment
    allocations. The adjustments are identified at DFAS Columbus and the applicable
    DFAS accounting station adjusts its records using the correct information.
    Adjustments are completed using a Standard Form 1081, “Voucher and Schedule
    of Withdrawals and Credits” (SF 1081).

    When DFAS Columbus receives funds from a contractor, the monies are
    deposited into a suspense account. The supporting documentation is forwarded to
    the accounts receivable division. At that point, DFAS Columbus personnel
    prepare an SF 1081 adjustment to remove the fund from the suspense account and
    to post the funds to the proper contract and line of accounting.

    For adjustments not referred to the customers, Military Departments, and other
    DoD Organizations, prior to completion, DoD Regulation 7000.14-R, “Financial
    Management Regulation” volume 6A, chapter 2 requires DFAS to notify the
    customer at least once each month of the total amount, by type, and the
    categories of reasons for adjustments made by DFAS.


Objectives
    The audit objective was to determine whether DoD accurately compiled and
    recorded financial adjustments related to contracts administered in the
    Mechanization of Contract Administration Services system and whether the
    results were included in the DoD financial statements. We also assessed


                                        1
    compliance with applicable laws and regulations. See Appendix A for a
    discussion of the scope and methodology.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of the DFAS management controls over commercial payment financial
    adjustments. Specifically, we reviewed the DFAS management controls over
    maintaining supporting documentation, reviewing and certifying financial
    adjustments, monitoring progress made in reducing the number of adjustments,
    and reporting adjustments. Because of the limited number of adjustments
    reviewed, we did not make a judgment on the materiality of the weaknesses
    identified. Therefore, we did not assess management’s self-evaluation.
    Adequacy of Management Controls. We identified management control
    weaknesses in the processing, identification, recording, and reporting of
    commercial payment financial adjustments. Recommendations 1 and 2, if
    implemented, will improve the DFAS control procedures. A copy of the report
    will be provided to the senior official responsible for management control at
    DFAS.




                                       2
            Contract Financial Adjustments
            During FY 2004 DFAS Columbus recorded 187,482 MOCAS financial
            adjustments valued at $20.5 billion. A review of 185 judgmentally
            selected adjustments, valued at $1.8 billion, indicated DFAS Columbus
            made 80 adjustments, valued at $924 million, which were reasonable. The
            remaining 105, valued at $910 million, were either voided prior to being
            reported, were unnecessary or erroneously compiled and recorded, or
            corrected prior unnecessary and erroneous adjustments. Additionally,
            only 4 of 11 DFAS officials who certified the financial adjustments were
            delegated the proper authority. These conditions existed because DFAS
            did not have adequate procedures in place to comply with DoD policies on
            the processing, recording, and compiling of financial adjustments.
            Furthermore, DFAS Columbus personnel did not follow existing policy on
            the review and certification of financial adjustments. As a result,
            DFAS Columbus did not provide reliable information on MOCAS
            contracts that was needed by DoD managers to properly manage contracts
            and accurately compile DoD financial statement information.
            Additionally, DFAS Columbus cannot show needed improvement in the
            future on the amount of adjustments on MOCAS contract payments
            because it has no baseline to measure from. DFAS Columbus needs to
            take action to reduce the number of financial adjustments it processes on
            MOCAS contracts in order to improve the reliability of MOCAS
            information and reduce the contract reconciliation costs.


Reliability of Adjustments
     DFAS Columbus recorded financial adjustments on SF 1081, “Voucher and
     Schedule of Withdrawals and Credits.” Each SF 1081 updated information in
     MOCAS after it was approved by the certifying officer.

     We judgmentally selected 23 SF 1081s for review and those forms included
     118 line-item adjustments. The 118 line-item adjustments led to 67 additional
     line-item adjustments that were related to, but not included in, the SF 1081s for a
     total of 185 adjustments. Table 1 shows the types of adjustments made and their
     value. The results of our review are representative only of the sample and should
     not be generalized to the entire population.




                                          3
                    Table 1. Number of Adjustments by Category

  Type of Adjustment          Number of Adjustments            Dollar Value of Adjustments
 Credit Voucher                            81                               $ 409,166,514

 Settlement Voucher                        8                                    13,676,246

 Voided Voucher*                           51                                  122,210,388

 Payment Voucher                           45                                1,289,516,976

  Total                                    185                              $1,834,570,124

 *Voided vouchers are not reported externally to the accounting station



We did not include the 51 voided adjustments in any further analysis since they
did not affect any accounts. We assessed whether the remaining 134 externally
reported adjustments valued at $1.7 billion were appropriate, unnecessary,
erroneous, or corrective action. Table 2 shows the results of our assessment.



                   Table 2. Classification of External Adjustments

                                                    Percentage of           Dollar
                                Number of             External             Value of
         Category               Adjustments         Adjustments*          Adjustments

 Appropriate                          80                59.7%                $924,004,470

 Unnecessary                          14               10.45%                  557,335,812

 Erroneous                            14               10.45%                   32,727,311
 Corrective Action                    26                19.4%                  198,292,142

  Total                              134                100%                $1,712,359,735

 *Judgmental sample percentage does not generalize to the population.



Only 80 of the 134 adjustments were appropriate. The others were not needed,
were incorrect, or were required corrective action. The details about the
remaining adjustments are described below.

Unnecessary Adjustments. We included adjustments in the “unnecessary”
category if the adjustments were not needed to correct prior disbursements,
collections, or other adjustments. Of the 134 externally reported adjustments,


                                           4
there were 14 unnecessary adjustments. For example, DFAS Columbus received
a refund from a contractor in 1992 and processed the refund to the correct
contract. However, in 1995, DFAS Columbus approved 10 unnecessary
adjustments relating to the refund, which moved funds between the original
contract and a second contract. DFAS Columbus closed the first contract before
the unnecessary adjustments were reversed. DFAS Columbus discovered the
unnecessary adjustments during the reconciliation of the second contract. As a
result, in 2004 DFAS Columbus reversed the 10 unnecessary adjustments that
were made in 1995. Extensive research was required to reconcile the contracts.
Proper review would have prevented the processing of the unnecessary
adjustments in 1995.

Erroneous Adjustments. We defined erroneous adjustments as required
adjustments that were posted to the incorrect appropriation or were made for
improper amounts. Of the 134 externally reported adjustments, there were
14 erroneous adjustments. For example, DFAS Columbus received a check for
$1.35 million that contained instructions from the Defense Contract Management
Agency to adjust six line items on contract N00383-01-G100A. The adjustments
should have been processed as a net credit of $1.35 million. However,
DFAS Columbus processed the adjustments in reverse of the Defense Contract
Management Agency instructions and recorded a net debit of $1.35 million, for a
total error of $2.7 million ($1.35 million plus $1.35 million). DFAS Columbus
later processed an additional adjustment correcting these errors. Improving
controls, to ensure that DFAS Columbus personnel perform a proper review and
understand the supporting documentation would prevent errors such as the
erroneous adjustments.

Corrective Action. We defined adjustments as corrective action when the
adjustments were made to correct prior unnecessary or erroneous adjustments.
DFAS processed 26 adjustments to reverse or correct the unnecessary and
erroneous adjustments. Table 3 shows the split in the amounts of corrective
actions for unnecessary and erroneous adjustments.

                   Table 3. Corrective Action Classification

 Adjustment Corrects    Number of Adjustments      Dollar Value of Adjustments
 Unnecessary                       10                             $161,335,812

 Erroneous                         16                               36,956,330

  Total                            26                             $198,292,142



Processing corrective action adjustments required reconciliations from current
and past contracts. The Military Departments and other DoD organizations are
billed by DFAS for the reconciliations and adjustments completed on their
contracts. Presently, the DFAS Columbus reconciliation division charges its DoD
customers $74.55 per hour for reconciliations and processing of adjustments.
Unnecessary and erroneous adjustments can result in significant costs to the


                                   5
    Military Departments or other DoD organizations. Demonstrating proper internal
    control over financial adjustments may result in significant savings by reducing
    the number of unnecessary, erroneous, and corrective action adjustments needed.


Improving Internal Control over Financial Adjustments
    DFAS Columbus personnel made unnecessary, erroneous, and corrective
    financial adjustments primarily because they did not always adhere to the DoD
    policy on the review, approval, documentation, and reporting of adjustments.

    Review and Approval of Adjustments. DoD Regulation 7000.14-R, volume 5,
    chapter 33 states that certifying officers are responsible for the accuracy of facts
    stated on a voucher and in the supporting documentation and records.
    DFAS 7000.8-I requires all certifying officers, including those certifying
    SF 1081s, to complete training prior to assuming the certifying officer duties.
    According to DFAS Columbus Interim Guidance 01-PRO-007, the Deputy
    Director of Contract Pay Services must appoint all certifying officers, including
    those certifying SF 1081s. Finally, DoD Regulation 7000.14-R, volume 10,
    chapter 20 requires those who approve financial adjustments to ensure that all
    adjustments are properly documented, the adjustments fully correct all affected
    systems, and adjustments are accurately posted to all disbursement and
    accounting systems.
    We examined the qualifications of 11 certifying officers and determined that only
    4 received proper delegations of authority in accordance with the guidance at the
    time of their appointment. Additionally, DFAS Columbus was unable to verify
    that any of the 11 certifying officers received the training required to perform the
    certification. If the certifying officers are properly trained and perform
    appropriate reviews when certifying SF 1081s for processing, it is more probable
    that DFAS Columbus can show improvement in reducing the number of financial
    adjustments processed.

    Supporting Documentation. DoD Regulation 7000.14-R, volume 10, chapter 20
    requires the retention of accurate and complete supporting documentation,
    including documentation on financial adjustments. Although a majority of the
    documents we reviewed accurately reflected the adjustments, the supporting
    documentation for three large financial adjustments did not reflect what
    DFAS Columbus processed. For example, in FY 2003 DFAS Columbus received
    an invoice from a vendor that returned money to the Government.
    DFAS Columbus incorrectly recorded the refund as a charge to the Navy.
    DFAS Columbus used an SF 1081 to reverse the error. The SF 1081 showed that
    DFAS returned the funds ($5.7 million) to the National Guard instead of the
    Navy. However, the documentation within MOCAS and the Navy accounting
    system showed that DFAS did in fact return the money to the Navy.
    DFAS Columbus personnel could not explain why the SF 1081 did not match the
    MOCAS information or the Navy accounting data. In this instance, the audit trail
    for the transactions did not accurately represent the transactions that were posted
    in MOCAS and the official accounting records. Certifying officers should ensure
    supporting documentation accurately reflects the actions taken by the reconciler
    or accountant.


                                          6
     Financial Reports on Contract Financial Adjustments. DoD
     Regulation 7000.14-R, volume 6A, chapter 2 requires DFAS to notify its
     customers at least once each month of the total amount of financial adjustments
     by type, and the reason for the adjustments. According to DFAS Columbus
     personnel, the reporting requirement is not their responsibility because they are in
     charge of the DFAS Commercial Pay Business Line. They indicated the
     Regulation’s reporting requirements were the responsibility of personnel in the
     offices of the DFAS Accounting Business Line.

     DFAS Columbus was providing the DFAS Accounting Business Line office
     information it had on expenditure, collection, and adjustment transactions
     processed by MOCAS and the Contract Reconciliation System (CRS) at DFAS
     Columbus. However, the information was not compiled in accordance with
     DoD 7000.14-R. Specifically DFAS did not provide the information on a
     monthly basis and did not summarize it by the total amount, type, and the
     categories of reasons for adjustments made by DFAS.

     We met with senior DFAS officials in July 2005. Officials from the Commercial
     Pay Business Line and the Accounting Business Line agreed that they need to
     work together with DFAS customers to produce meaningful management reports.
     Management agreed that the reports will facilitate progress toward reducing the
     number of adjustments by allowing DFAS Columbus to focus its attention on why
     the adjustments occur and how they can be avoided. Ultimately, by producing the
     management reports, DFAS Columbus can demonstrate it is focused on reducing
     problems that result in the need for adjustments and can provide accurate
     information to its customers.


Effects on Financial Information
     Of the 134 financial adjustments, 53 adjustments valued at $1.4 billion made
     corrections to transactions from a previous fiscal year. Of those, 10, valued at
     $7.5 million, changed the appropriation charged. Additionally, the accounting
     stations provided 4 examples (totaling $1.3 million) of adjustments processed by
     DFAS Columbus internally but not reported to the accounting stations.

     These unreported adjustments had a direct effect on the DoD financial records as
     follows.

     Adjustments that Affect Prior Year Financial Transactions. Payments
     DFAS Columbus personnel processed incorrectly in one fiscal year resulted in the
     need for adjustments that often were not made until the next fiscal year. The
     adjustments affected contract information and administration and financial
     reporting for prior years. For example, an SF 1081 that DFAS Columbus used to
     adjust contract number F33657-97-C0030, involved 15 line item adjustments.
     The adjustments, which were processed in FY 2004, corrected the posting of a
     FY 2003 disbursement. In making the FY 2003 disbursement, DFAS Columbus
     failed to post $198 million of a FY 2003 invoice in MOCAS until FY 2004. This
     included $99 million of the payment and $99 million of the recoupment amount.
     Additionally, DFAS Columbus provided this inaccurate posting data to the


                                          7
    accounting station. As a result, the FY 2003 accounting records did not contain
    all of the relevant payment and recoupment amounts. The correction in FY 2004
    resulted from DFAS attempts to correct an improper allocation. In the process of
    correcting the allocation, DFAS Columbus personnel unknowingly posted the
    $198 million from the FY 2003 disbursement.

    Adjustments that Affect Appropriations. When DFAS Columbus makes
    payments or adjustments and does not allocate them to the correct appropriation,
    there is an increased risk of creating or masking problem disbursements that
    DFAS is required to report. For example, in FY 2004 a DFAS Columbus
    certifying officer did not properly review two adjustments on a contract (F08635-
    01-C0027) valued at $2.2 million. The adjustments moved funds between two
    service codes and two appropriations on the contract. If the correct adjustments
    were made in accordance with the invoices, MOCAS would have reported a
    negative unliquidated obligation (NULO) on the contract. However, the
    erroneous adjustments masked the reportable problem disbursement.

    After we notified the certifying officer of the erroneous adjustments, the
    reconciler and the certifying officer agreed that the adjustments needed to be
    reversed and a more extensive reconciliation completed. The reconciler was able
    to process the reversing adjustment in coordination with other adjustments so that
    the NULO could be resolved.

    Internal Adjustments Versus External Adjustments. Internal adjustments are
    used to process corrections that are internal to MOCAS only and are not reported
    to the accounting stations. Prior to approving the adjustments, the certifying
    officers are required to ensure the adjustments correct data in all appropriate
    systems.

    According to personnel at the DFAS accounting stations in Charleston, South
    Carolina, and Dayton, Ohio, DFAS Columbus personnel frequently process
    internal adjustments that should be reported externally. The accounting stations
    provided four examples of internal adjustments, processed by both the
    reconciliation division and accounts receivable division that should have been
    reported to the accounting station. For example, DFAS Columbus processed one
    payment twice and sent the information to the accounting station in Dayton.
    After the duplicate payment was discovered and the collection received,
    DFAS Columbus processed an internal adjustment to post the collection to the
    MOCAS records. However, DFAS Columbus did not report the credit to the
    accounting station. The accounting stations are unable to adjust the records
    without DFAS Columbus processing the external adjustments.


Conclusion
    It is essential that DFAS processes only required financial adjustments and does
    so in a timely and accurate manner. The lack of comprehensive internal control
    over financial adjustments and DFAS noncompliance with current policies and
    procedures has increased the risk of DFAS Columbus processing unnecessary and
    erroneous adjustments and of DoD activities maintaining erroneous accounting
    records.


                                        8
    Reconcilers and certifying officers need training to more accurately process
    financial adjustments. Proper review and approval of financial adjustments,
    increased emphasis on supporting documentation, and proper internal and
    external reporting, will decrease the risk that DFAS Columbus will make
    unnecessary and erroneous adjustments, thereby decreasing the number of
    reconciliations required to correct the adjustments.

    Finally, accurate reporting of financial adjustments can demonstrate progress
    toward reducing adjustments on prior payments, collections, and adjustments.


Management Actions
    As of July 2005, DFAS Columbus management stated it was planning to
    emphasize training the reconcilers and certifying officers, and is constructing a
    new training class for both. The class will also be offered to non-DFAS
    employees. Reconcilers and certifying officers should receive periodic training to
    stay current on changing policies and systems.

    Additionally, DFAS Columbus is presently in the process of issuing delegations
    of authority to all certifying officers. The delegations are being issued in
    accordance with current DFAS guidance. As a result of this ongoing action, we
    are not making recommendations in this area.


Recommendations and Management Comments
    Deleted and Renumbered Recommendation. The Director of Defense Finance
    and Accounting Service coordinated and deferred all comments and responses to
    the recommendations to the Deputy Director, Defense Finance and Accounting
    Service, Commercial Pay Services (Columbus, Ohio). As a result of management
    comments we deleted recommendation 1.b. Management comments on our other
    audit recommendations met the intent originally stated as recommendation 1.b.
    We renumbered draft recommendation 1.c. as 1.b.

    We recommend that the Director of the Defense Finance and Accounting
    Service:

           1. Issue comprehensive policy and guidance to establish consistent
    processes to identify, process, compile, and record adjustments. The policy
    should, at a minimum:

                  a. Require a periodic compilation and report providing the
    number of adjustments and the total effect on current and prior year
    financial records.

    Management Comments. The Deputy Director of Defense Finance and
    Accounting Service, Commercial Pay Services (Columbus, Ohio) concurred with
    the recommendation. She stated that DFAS will compile reports on financial


                                        9
adjustments and determine the content, data source, receipts, and frequency of
reports to be generated and any system modifications or queries that will be
necessary for such reporting. The Deputy Director provided an estimated
completion date of February 28, 2006.

               b. Require periodic training of reconcilers and
certifying officers on policies, procedures, and responsibilities in reviewing
Standard Form 1081 financial adjustments.

Management Comments. The Deputy Director of Defense Finance and
Accounting Service, Commercial Pay Services (Columbus, Ohio) concurred with
the recommendation and stated that a revised Responsible Contract
Reconciliation Agent training class is in process. The Deputy Director stated that
she would ensure that all new employees are given extensive training on the
entire reconciliation process, which includes the completing of financial
adjustments. She stated that this training is scheduled for completion by January
31, 2006.

       2. Provide a thorough checklist of items certifying officers should
review prior to approving the adjustment. The checklist should, at a
minimum, include:

             a. Reviewing all supporting documentation to ensure the
adjustments are completed in the most efficient manner possible.

               b. Reviewing the appropriateness and amount of the
adjustment.

               c. Ensuring the necessity of the adjustment.

               d. Ensuring all affected systems will be accurately adjusted.

Management Comments. The Deputy Director of Defense Finance and
Accounting Service, Commercial Pay Services (Columbus, Ohio) concurred with
the recommendation. She agreed to revise desk procedures to include a checklist
to be used by the reviewing/approving official in both the reconciliation and
accounts receivable areas. She provided an estimated completion date of
January 31, 2006.

       3. Direct the Director of the Contract Pay Business Line and the
Director of the Accounting Business Line to coordinate the compilation of
periodic monthly reports to Defense Finance and Accounting Service
customers in accordance with DoD 7000.14-R, volume 6A, chapter 2.

Management Comments. The Deputy Director of Defense Finance and
Accounting Service, Commercial Pay Services (Columbus, Ohio) concurred with
the recommendation. She stated that DFAS will work with its customers to verify
what information they require to ensure compliance with directives. She provided
an estimated completion date of February 28, 2006.




                                    10
Appendix A. Scope and Methodology
   We assessed whether DoD complied with the requirements of DoD
   Regulation 7000.14-R, “DoD Financial Management Regulation,” volume 6a,
   chapter 2, March 2002; volume 10, chapter 1, March 2002; and volume 10,
   chapter 20, May 2001. Additionally, we assessed DFAS compliance with internal
   guidance implementing the Regulation and discussing the accrual of accounts
   payable adjustments. We obtained FY 2004 transactions processed using
   MOCAS and FY 2004 transactions processed using CRS. We analyzed the data
   to determine the total dollar value of the external adjustments. Additionally, with
   the help of the Quantitative Methods Division (QMD) of the DoD OIG, we
   analyzed the completeness of the data. Finally, we obtained examples of the
   September 30, 2004, accrual adjustments from DFAS Indianapolis and
   DFAS Cleveland.

   We selected our sample from the data provided by DFAS Columbus. We ensured
   that we selected adjustments for contracts administered by the Army, Navy, Air
   Force, and other DoD agencies. Additionally, we selected transactions that
   appeared in only the MOCAS data, only the CRS data, and in both sets of data.
   We selected both older and newer contracts by ensuring that our limited sample
   included both pre- and post-1999 contracts. We selected high-dollar value
   vouchers. Finally, we ensured we selected at least one SF 1081 with a
   holding Accounting Classification Reference Number on the voucher.

   We obtained all supporting documentation for each of the samples selected.
   Sample documentation included the reason for the adjustment, how the
   adjustment was processed at DFAS Columbus, and how the adjustment was
   posted at the accounting stations. We reviewed the trail of documentation to the
   original disbursement or collection, including all previous and subsequent
   adjustments. We evaluated the documentation for necessity, appropriateness, and
   timeliness. Additionally, we ensured the documentation supported the actions
   taken to process the adjustment.

   In a statistical sense, the representativeness of a sample is determined by whether
   the method of its selection was random or involved human judgment. Our sample
   was judgmental. The results of our review discussed in this report are
   representative only of the sample and should not be generalized to the entire
   population.
   We performed this audit from September 2004 through August 2005 in
   accordance with generally accepted government auditing standards.

   Use of Computer-Processed Data. We relied on computer-processed data from
   the MOCAS, CRS, and various other accounting systems. After assessing the
   reliability of the data, we could not verify the completeness of the MOCAS or
   CRS data. Because we completed a judgmental sample, the completeness and
   reliability of the MOCAS and CRS data were not relevant to the audit results.




                                       11
      We completed limited testing on the reliability of the data we received from the
      accounting systems. We determined the data we received was accurate. We only
      reviewed accuracy of the data obtained and not the reliability of each system.

      Use of Technical Assistance. Personnel from the Quantitative Methods Division
      (QMD) of the DoD OIG assisted in assessing the completeness of the computer
      processed data. Additionally, QMD personnel assisted in determining the
      sampling methodology.

      Government Accountability Office High-Risk Area. The Government
      Accountability Office has identified several high-risk areas in DoD. This report
      provides coverage of the DoD contract management and financial management
      high-risk areas.


Prior Coverage
      During the last 5 years, the Government Accountability Office (GAO) has issued
      four reports discussing financial adjustments on contracts administered in the
      Mechanization of Contract Administration Services system. Unrestricted
      GAO reports can be accessed over the Internet at http://www.gao.gov.

GAO
      GAO Report No. 03-727, “Management Action Needed to Reduce Billions in
      Adjustments to Contract Payment Records,” August 2003

      GAO Report No. 02-747, “Improvements Made but More Corrective Actions Are
      Needed,” July 2002

      GAO Report No. 01-697, “$615 Million of Illegal or Otherwise Improper
      Adjustments,” July 2001

      GAO Report No. 00-20, “Differences in Army and Air Force Disbursing and
      Accounting Records,” March 2000




                                          12
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                          13
Defense Finance and Accounting Service
Commercial Pay Services Comments




                      15
Final Report
 Reference




Deleted




Renumbered
as
Recommen-
dation 1.b. in
final report.




                 16
17
Team Members
The Office of the Deputy Inspector General for Auditing of the Department of
Defense, Defense Financial Auditing Service prepared this report. Personnel of
the Department of Defense Office of Inspector General who contributed to the
report are listed below.

Paul J. Granetto
Patricia A. Marsh
James L. Kornides
Curt W. Malthouse
Carmen J. Malone
Kelly E. Prillaman
Benjamin M. Howison
Lusk F. Penn
